 MONITORING OF INSURANCE

COVERAGE FOR DISASTER LOAN

       RECIPIENTS 

        Report Number: 10-01 

     Date Issued:October 20,2009

                                                                                                    2
We conducted the audit between March 2009 and June 2009 in accordance with

Government Auditing Standards prescribed by the Comptroller General of the

United States. 

We found that SBA did not ensure that borrower insurance policies provided

adequate coverage and were continuously renewed. The Agency also did not

comply with statutory requirements to purchase policies for borrowers who let

                lapse.                                  $3.8
their policies As a result,we identified 1 million in outstanding loan

balances that may not be adequately protected. Projecting our sample results to

the universe of 23,068 loans,we estimate that at least 5,341 loans,with

approximately $510 million in outstanding loan balances,lacked evidence of

adequate protection by current insurance coverage. Although our review focused 

on loans resulting from several specific disasters, we expect that a similar rate of

unprotected loan balances exists for loans resulting from other major disasters. 

We are recommending that SBA inform borrowers on the loans we identified with

lapsed policies or insufficient insurance coverage that they must provide evidence

of adequate insurance coverage. We are also recommending that SBA determine

the actions needed to achieve compliance with statutory flood insurance

requirements    and the cost implications of achieving compliance. If SBA

determines   that it is not cost effective to purchase insurance for borrowers who

refuse to renew their policies, then it should take steps to seek additional funding

or a legislative change to this requirement. We are also recommending that SBA

clarify in its operating procedures what actions should be taken when borrowers

do not obtain hazard insurance,which Agency policy requires. 

BACKGROUND 

The National Flood Insurance Act of 1968,combined with the Flood Disaster

Protection Act of 1973,states that no Federal agency lenders may extend a loan

secured    by real estate that is located in a Special Hazard Flood Area unless that

real estate is covered for the term of the loan by flood insurance. The amount of 

coverage     must   be at least equal to the outstanding balance of the loan,or the

maximum                                                         less.
              limit of coverage available, whichever is Through its national

flood mapping efforts,the Federal Emergency Management Agency determines

what areas of the country constitute a Special Hazard Flood The 1973Act
  Area.
further states that if a Federal agency lender determines that a borrower has failed 

to maintain adequate flood insurance coverage,the agency must instruct the

borrower     to obtain the required coverage. If the borrower fails to purchase the

required insurance coverage within 45 days of the notification,the agency must 

1 In responding to the draft report, SBA determined that some of the borrowers flagged by the audit as

  lacking evidence of insurance did have the required insurance coverage.

                                                                                                      3
purchase   the insurance on behalf of the borrower,and charge the borrower for any

associated costs. 

SBA s Disaster Loan Servicing Standard Operating Procedure (SOP)
contains  flood and hazard insurance monitoring requirements for use in the

servicing of disaster loans. The flood insurance requirements mirror those listed

                                                                                       50-52

in the National Flood Insurance Act of 1968 and the Flood Disaster Protection Act

             50-52
of 1973. Although no applicable Federal requirements regarding hazard insurance

exist, SOP states that borrowers must maintain hazard insurance coverage in

accordance   with their Loan Authorization and Agreements. In contrast to the

procedures regarding flood insurance,the agency will not purchase or maintain

hazard insurance on property securing a loan asa general policy. SOP does

not indicate what actions should be taken when a borrower fails to maintain the

required hazard insurance. 

                                                                                        50-52
During the disaster loan origination process,loan officers at SBA s Processing and

Distribution Center (PDC)are required to ensure that borrowers have purchased

all required flood and hazard insurance coverage on collateral properties before

fully disbursing a loan. These initial insurance policies typically last 12months,

and must be renewed by borrowers on a yearly basis. Once a loan is fully

disbursed,  the loan file is transferred to either the Birmingham or El Paso Disaster

Loan  Servicing Center,where all servicing actions occur throughout the life of the

loan.  After a loan is transferred to a servicing center,servicing personnel are

responsible for monitoring all required insurance coverage. 

RESULTS 

Our   review    of 120 collateralized,fully-disbursed loans identified 352 that lacked

evidence     of the required flood and/or hazard insurance coverage,and an additional

loan   that lacked adequate hazard insurance coverage. Of the 35 loans without

evidence of insurance,19lacked evidence of hazard insurance,5 lacked evidence

of flood insurance,and 11lacked evidence of both. SBA made no attempt to

notify borrowers to obtain insurance,and when none was obtained,to purchase

flood insurance for
Areas.                  non-compliant       borrowers     located in Special Hazard Flood

          Projecting these results to the universe of loans sampled,we estimate that

at least 5,341 disaster loans,with approximately $510 million in outstanding

balances,     lacked evidence of adequate insurance coverage on collateral properties.

Although our testing of insurance coverage was limited to loans resulting from

several   specific disasters, we expect that similar
for loans associated with other major disasters. 

                                                            non-compliance        rates   may   exist

2 After the draft report was issued,SBA determined that 17of the 35 borrowers had the required insurance

  coverage.

                                                                                            4

OFA management indicated that the servicing centers discontinued all insurance

                                      ago.
monitoring activities 23years The centers do not track insurance coverage on

collateral properties or enforce insurance requirements on           non-compliant

borrowers,    and policy documents provided by insurance providers are discarded

without being reviewed. During a site visit to the El Paso Disaster Loan Servicing

Center, we    identified hundreds of insurance documents that were about to be

discarded.policies particular box contained:420 renewal policies, 106 notices that

              One would
current                   soon expire, 87cancellation notices, 40 notices indicating

that coverage had expired,31 amended policy declarations,and 13miscellaneous

documents. 

The decision    to not monitor insurance coverage was based on a 1986 Agency

memo   3 that allowed insurance monitoring activities to be suspended during

periods of high workloads and low staffing levels. The memo stated, & when 

manpower
insurance    or
            or  volume
               any
                         is a problem,we do not require any          follow-up
                                                                        on flood

                    extended pursuit of hazard insurance when a cancellation is

received.    The memo additionally instructed that insurance documents should not

be maintained in loan files,and that insurance companies should be instructed to

not
the Flood Disaster Protection Act and
insurance   policies be purchased for
properties located in Special Hazard Flood
                                             Snon-compliant
                                                 OP-5Areas.0-52, 

    provide SBA with policy declarations or notices. This guidance conflicts with

                                                      which require that flood

                                                      borrowers  with collateral

The Agency faces several challenges in complying with Federal and SOP

requirements    for insurance monitoring because the servicing centers do not have a

centralized database listing collateral or insurance requirements for the disaster

SOP-50-52,       portfolio.
loan servicingcenter         To implement the insurance monitoring requirements of

                      staff would have to search multiple data sources to associate it

with the correct loan file and take appropriate action. For example,loan servicing

staff would first have to access DCMS to obtain the most recent Loan

Authorization and Agreement,and review the applicable Collateral,Stipulation,

and Property screens to determine the required coverage amounts. However,this

information is only current as of the date the loan was fully disbursed. The

servicing staff must then review CLCS to determine if any subsequent changes

were  made
Amendments   to the collateral or insurance requirements at the loan servicing
                to the loan terms would then be located in the loan s collateral
                                                                                      center.

                                                                                        file.

This approach does not provide the Agency with an efficient method of

monitoring yearly insurance policy renewals. 


3   A copy of the Agency memo is provided in Appendix   IV.

                                                                                 5
Additionally, SBA does not receive all cancellation notices from insurance

providers because insurance companies do not always properly list SBA asa lien

holder on the policy declarations. Therefore,it would not knowwhen some

required insurance policies expire. For example,SBA was not properly listed as

the lien holder on required insurance policies for 31,or 26 percent,of the 120

sampled loans. When SBA is not listed asa lien holder,policy documents,such as

cancellation and renewal notices are not provided to the Agency. 

To effectively monitor and enforce insurance requirements on the loan servicing

portfolio, SBA needs a centralized database that lists each loan s collateral

properties and associated insurance coverage. Also,policy numbers,coverage

amounts,   and coverage dates should be recorded,and the information from

cancellation or renewal notices should be continuously updated in the system.

When a policy s expiration date has passed,an alert can be sent to loan servicing

personnel,ofinstructing
evidence     a  renewal. them to contact the insurance provider or the borrower for

                          This capability would require either a modification of

DCMS or development of an insurance monitoring system,which may be costly. 

Finally,
upon     a process where loan servicing staff must contact insurance providers

      expiration of the insurance policy would also ensure that SBA does not

overlook   any  loans for which it is not listed asa lien holder on the policy

declaration.   Such a system should interface with DCMS for collateral property

addresses and insurance policy data,and the insurance policy details could be

edited by servicing personnel with appropriate user access. 

Because   significant costs may be involved to execute the insurance monitoring

requirements    of the National Insurance Flood Act,SBA will need to determine the

cost effectiveness of complying with the statute,and if determined to be too

costly,take steps to seek additional funding or a change in the statute. 

RECOMMENDATIONS 

 We recommend that the Director of the Office of Financial Program Operations:

   1.  Inform    borrowers  on the 36 loans with lapsed policies or insufficient 

       coverage that they must provide evidence of adequate insurance coverage.

   2. compliance.
       Determine the actions needed to achieve compliance with statutory flood

       insurance monitoring requirements and the cost implications of achieving

   3. loans.DevelopAlternatively,
                     and execute
a for achieving compliance on
                            if
                              plan
                                                    is
                                                                     and future

                                                               existing
                                  achieving compliance determined to not cost

                                                                     be
                                                                                     6
      effective, seek additional funding or a legislative change to the statutory

      flood insurance requirement.

   4. 50-52
      Revise SOP to clarify what action(s)servicing center personnel

      should take when borrowers refuse to obtain required hazard insurance. 

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL 

RESPONSE 

On August 10,2009 we provided the Office of Financial Assistance (OFA)with

response,
findings,                                 V.
the draft report for comment. On October 13,2009 OFA submitted its formal 

           which is contained in Appendix Management agreed with our

to address Recommendation 1,and concurred with Recommendations 3 and A 
     4.
          partially concurred with Recommendations 1 and 2,has initiated action

summary of management s comments and our response follows. 

Recommendation 1 

Management Comments 

OFA has contacted or attempted to contact all 36 borrowers we identified as

potentially lacking flood and/or hazard insurance. The Agency found that 17of

the borrowers do have the required insurance coverage in place,9 do not have the

required coverage in place,and 10could not be contacted. On 8 of the 19loans

where borrowers   either lacked the required insurance coverage or were

unreachable,  SBA holds a first lien position on the collateral property. OFA has

agreed to put their emphasis on these eight loans and attempt to obtain the required

insurance coverage. 

OIG Response 

Management    s comments    are partially responsive to the recommendation.

Although the proposed action to address the eight loans in which SBA is the first

lien holder should be a priority, we believe that the remaining 11loans in which

SBA is not the first lien holder need to be addressed as well. Because OFA has

already determined that 19of the 36 loans we identified may lack the required

insurance
prejudice.coverage,   the Agency should work to remedy all 19loans without

            We see no reason to exclude loans in which SBA is not the first lien

holder when the deficiencies have already been identified or to exclude the 10

borrowers  that could not be contacted. Consequently,we will pursue a

management decision on this recommendation through the audit resolution

                                                                                        7
process.
loans. 
 SBA also needs to provide a target date for actions proposed on the eight

Recommendation 2 

Management Comments 

In order to manage the high volume of loans in the servicing portfolio that require

insurance
actions
             monitoring,   management      decided to limit its flood insurance monitoring

          to only address higher risk loans where collateral property is located in a

Special Flood Hazard Area,and SBA is the first lien holder on the collateral

property.    This decision is based on the position that SBA holds little to no equity

in properties for which it is not the first lien holder,and that the first lien holders

should bear the responsibility of enforcing flood insurance requirements on the

borrowers.     Management has agreed to enforce the flood insurance requirements

     prescribed in the Flood Act on loans in which SBA is the first lien holder on

ascollateral property,  and the collateral is located in a Special Flood Hazard Area.

Management       also plans to query all disaster loans made since the establishment of

DCMS in 2005 to identify all loans for which SBA is the first lien holder on real

estate   securing the disaster loans. 

OIG Response 

Management       s comments     are partially responsive to the recommendation. We

acknowledge that the task of enforcing the requirements of the Flood Act on the

entire loan servicing portfolio is extensive and believe that enforcing the flood

insurance    requirements where SBA holds a first lien position on the collateral 

property on is a good starting point. However,unless SBA has a legal opinion,

which concludes that the requirements of the Flood Act are satisfied by monitoring

only those loans for which it has a first lien holder position, we believe it should

              first lien holders to ensure the insurance requirements have been

contact theBecause
enforced.               SBA will need to discuss the legislative requirements with the

appropriate parties to determine whether its planned actions are sufficient to fulfill

the requirements of the Flood Act,we do not consider management s actions to be

fully responsive to the recommendation. Therefore,we will pursue a management

decision through the audit resolution process. 

Recommendation 3 

Management Comments 

Management                                 6-month
                 stated that it will initiate a          trial project in which disaster

loan servicing staff will monitor whether borrowers are maintaining required flood

                I. 

APPENDIX SCOPE AND METHODOLOGY

The audit objectives were to evaluate whether the Disaster Loan Servicing Centers

      (1)ensured that required insurance policies provide adequate coverage and 

havecontinuously
                                                                                    9

are                renewed   and (2)taken action to obtain required flood insurance

policies for borrowers who have not maintained them. 

To satisfy these objectives,we interviewed managers at the El Paso and

Birmingham Disaster Loan Servicing Centers regarding the insurance monitoring

procedures   that the centers were following,and to determine whether flood

insurance  policies have been purchased for non-compliant borrowers. We

reviewed a statistical
fully-disbursed         sample of 120collateralized disaster loans that had been

                  between  January  1,2006 and December 31,2008 totest whether

all flood and/or hazard insurance policies required by each Loan Authorization

and Agreement were current and adequate. We reviewed the Federal Emergency

and Management Agency s database of all current flood insurance policies, and

contacted the insurance providers identified by borrowers during loan

disbursement to determine whether the sampled loans had current flood and

hazard insurance policies. To determine whether the flood and/or hazard

insurance  policies provided adequate coverage,we compared the current coverage

amount
amount   obtained from flood and hazard insurance providers to the coverage

         recorded at loan disbursement. If the coverage had not decreased,then the

current coverage amount was considered adequate. Because we relied on

information available in the sample loan files, we did not contact borrowers

sample borrowers to obtain additional information regarding insurance coverage. 

To test the reliability of the universe data,we ensured that all disaster declaration

numbers   matched those of the disasters specified above,all final disbursement

dates fell within the specified time range,all loan disbursement amounts were

above $40,000,and that each loan carried flood insurance requirements. 

The audit was conducted between March 2009 and June 2009 in accordance with

Government    Auditing Standards as prescribed by the Comptroller General of the

United States,and included such tests considered necessary to provide reasonable 

assurance of detecting abuse or illegal acts.

                I.
APPENDIX SAMPLING METHODLOGY 

We obtained a population universe of 23,068 loans associated with Hurricanes Ike

                                                                                 10

and Gustav,the 2008 Midwest Floods,and Hurricanes Katrina,Rita,and Wilma

whose:  (1)final disbursement dates were onor between 01/01/06 and 12/31/08;

(2)disbursed amounts exceeded $40,000;and (3)flood insurance stipulations

covered collateral properties. 

From  this population universe, we randomly selected a statistical sample of 120

loans to estimate our population values. In statistically sampling,the estimate of

attributes in the population universe has a measurable precision or sampling error.

The precision is a measure of the expected difference between the value found in

the sample and the value of the same characteristics that would have been found if 

a 100-percent review had been completed using the same techniques. 

We calculated the population point estimates and the related lower and upper

limits for the selected attributes using the Windows
software  program     90-percent
                    at a                     level. RAT-STATS      statistical

                                    confidence Projecting our sample results 

to the universe of 23,068 loans,we estimate that at least 5,341 loans lacked the

required flood and/or hazard insurance,placing an aggregate outstanding balance

                                risk. 

of at least $510 million at undue
    OIG ESTIMATE OF LOANS LACKING ADEQUATE INSURANCE

                                     COVERAGE 

               Occurrence   Population
 90Percent Confidence

               in Sample of Point 

                120 Loans    Estimate 
 Lower Limit Upper Limit 

 Number  of 

   loans 
          36         6,920       5,341       8,674

Outstanding 
 $3,764,171 $723,704,098 $510,396,287 $937,011,909

Dollar Value 

       V.
APPENDIX AGENCY RESPONSE 
   12
       V.
APPENDIX AGENCY RESPONSE 
   13
       V.
APPENDIX AGENCY RESPONSE 
   14
